TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                          Processes to Determine Optimal
                          Face-to-Face Taxpayer Services,
                           Locations, and Virtual Services
                             Have Not Been Established



                                           June 27, 2014

                              Reference Number: 2014-40-038




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



Phone Number / 202-622-6500
E-mail Address / TIGTACommunications@tigta.treas.gov
Website        / http://www.treasury.gov/tigta
                                                 HIGHLIGHTS


PROCESSES TO DETERMINE OPTIMAL                       areas that would benefit from virtual service
FACE-TO-FACE TAXPAYER SERVICES,                      (through computer video). Moreover, the data
LOCATIONS, AND VIRTUAL SERVICES                      provided to management for use in assessing
HAVE NOT BEEN ESTABLISHED                            potential site closures are based on incomplete
                                                     information.
                                                     The IRS has not adequately addressed two
Highlights                                           recommendations from previous TIGTA reports.
                                                     It has not developed sufficient measures and
Final Report issued on June 27, 2014                 goals for Facilitated Self-Assistance in the
                                                     Taxpayer Assistance Centers. In addition,
Highlights of Reference Number: 2014-40-038          controls to ensure that data are entered
to the Internal Revenue Service Commissioner         accurately into management information
for the Wage and Investment Division.                systems and reviewed were not implemented
                                                     until after our review.
IMPACT ON TAXPAYERS
                                                     WHAT TIGTA RECOMMENDED
The IRS provides taxpayers with face-to-face tax
assistance at 386 Taxpayer Assistance Centers.       TIGTA recommended that the IRS ensure
The taxpayers most likely to visit Taxpayer          compliance with its procedures which require
Assistance Centers include low-income, elderly,      service-related decisions be based on informed
and limited-English-proficient taxpayers who         research; develop steps to be taken to collect
seek assistance in complying with the tax laws.      data to monitor, measure, and adjust service
Evaluating the burden and impact that service        changes; complete efforts to obtain data on the
cuts at Taxpayer Assistance Centers could have       services that are most important to taxpayers;
before taking action is important because many       establish a methodology to identify the optimal
taxpayers rely on these Centers to help them         locations for providing face-to-face assistance to
understand and meet their tax obligations.           the most taxpayers; develop and implement
                                                     documentation requirements to support data
WHY TIGTA DID THE AUDIT                              analyses; establish a process to identify the best
The IRS faces many challenges in providing           locations for virtual face-to-face services; and
services to taxpayers in its Taxpayer Assistance     quantify the cost savings and benefits related to
Centers. One of its most significant challenges      Virtual Service Delivery.
is meeting demand for those services with a          The IRS agreed with or indicated completion of
reduced budget and staffing. This audit was          four recommendations and disagreed with three
initiated to assess the IRS’s ability to provide     recommendations. For certain corrective
effective and efficient service to taxpayers         actions that the IRS proposed or stated were
through its Taxpayer Assistance Center               already implemented, TIGTA believes the
Program.                                             actions are insufficient. The lack of sufficient
WHAT TIGTA FOUND                                     corrective action could, in turn, increase the
                                                     burden on taxpayers who seek face-to-face
As part of its Fiscal Year 2014 Service              assistance at the Taxpayer Assistance Centers
Approach, the IRS eliminated or reduced tax          such as low-income, elderly, and limited-
return preparation, tax law assistance, refund       English-proficient taxpayers. The IRS did not
inquiries, and transcript request services.          gather the necessary data and perform the
However, prior to developing this plan, the IRS      required analysis to reduce the impact of service
did not evaluate the burden each service change      eliminations and reductions on these taxpayers.
will have on taxpayers who visit Taxpayer
Assistance Centers.
In addition, the IRS has not established
processes to identify optimal locations to provide
face-to-face services or to identify underserved
                                           DEPARTMENT OF THE TREASURY
                                                WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                            June 27, 2014


 MEMORANDUM FOR COMMISSIONER, WAGE AND INVESTMENT DIVISION


 FROM:                       Michael E. McKenney
                             Acting Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – Processes to Determine Optimal Face-to-Face
                             Taxpayer Services, Locations, and Virtual Services Have Not Been
                             Established (Audit # 201340005)

 This report presents the results of our review to determine the effectiveness and efficiency of the
 Taxpayer Assistance Center Program. This review included tests to follow up on the Internal
 Revenue Service’s (IRS) corrective actions to address recommendations in prior audits of the
 Field Assistance Office’s management of Taxpayer Assistance Centers. This audit is included in
 the Treasury Inspector General for Tax Administration’s Fiscal Year 2014 Annual Audit Plan
 and addresses the major management challenge of Providing Quality Taxpayer Service
 Operations.
 Management’s complete response to the draft report is included as Appendix IV. The response
 details the IRS’s disagreement with three recommendations and assertions that corrective actions
 are already implemented or not needed for three other recommendations. We believe the IRS’s
 corrective actions are insufficient. The lack of sufficient corrective action could, in turn,
 increase the burden on taxpayers who seek face-to-face assistance at the Taxpayer Assistance
 Centers such as low-income, elderly, and limited-English-proficient taxpayers. The IRS did not
 gather the necessary data and perform the required analysis to reduce the impact of service
 eliminations and reductions on these taxpayers. Finally, we believe some of the statements the
 IRS made in its response are inaccurate. We provide our perspective on these statements in
 Appendix V.
 Copies of this report are also being sent to the IRS managers affected by the report
 recommendations. If you have any questions, please contact me or Russell P. Martin, Acting
 Assistant Inspector General for Audit (Returns Processing and Account Services).
                                  Processes to Determine Optimal Face-to-Face
                                Taxpayer Services, Locations, and Virtual Services
                                           Have Not Been Established




                                             Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 5
          Taxpayer Assistance Center Services Were Eliminated
          or Reduced Without Sufficient Data or Analysis ......................................... Page 5
                    Recommendations 1 and 2: .............................................. Page 9

                    Recommendation 3:........................................................ Page 10

          The Internal Revenue Service Has Not Established a
          Process to Identify Optimal Locations for Providing
          Face-to-Face Services ................................................................................... Page 10
                    Recommendations 4 and 5: .............................................. Page 14

          A Process Has Not Been Developed to Expand Virtual
          Service Delivery............................................................................................ Page 14
                    Recommendations 6 and 7: .............................................. Page 16

          Issues Reported in Prior Treasury Inspector General for
          Tax Administration Reports Have Not Been Fully Addressed ..................... Page 17

Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 19
          Appendix II – Major Contributors to This Report ........................................ Page 22
          Appendix III – Report Distribution List ....................................................... Page 23
          Appendix IV – Management’s Response to the Draft Report ...................... Page 24
          Appendix V – Office of Audit Comments on Management’s
          Response to the Draft Report ........................................................................ Page 32
          Processes to Determine Optimal Face-to-Face
        Taxpayer Services, Locations, and Virtual Services
                   Have Not Been Established




                  Abbreviations

FTE         Full-Time Equivalent
IRS         Internal Revenue Service
TIGTA       Treasury Inspector General for Tax Administration
                              Processes to Determine Optimal Face-to-Face
                            Taxpayer Services, Locations, and Virtual Services
                                       Have Not Been Established




                                            Background

The Internal Revenue Service (IRS) provides taxpayers the option of obtaining personal
face-to-face tax assistance at its 386 Taxpayer Assistance Centers (the IRS’s walk-in offices)
nationwide.1 The Taxpayer Assistance Centers are within the Wage and Investment Division’s
Field Assistance Office and provide assistance to taxpayers, including interpreting tax laws and
regulations, providing forms and publications, resolving inquiries on tax accounts, and accepting
payments for tax debts.
As an alternative to visiting Taxpayer Assistance Centers for service, the IRS offers self-assisted
tools that taxpayers can access on its public website (IRS.gov). The IRS has taken actions to
enhance self-assisted services and educate taxpayers to use these options by offering online tools
that include:
       Where’s My Refund? – This tool allows taxpayers to check on the status of their refunds
        using the most up-to-date information available to the IRS.
       Get Transcript – This tool gives taxpayers the option to view or print a transcript of their
        tax account or they can have one mailed to them.
       Interactive Tax Assistant – This application is a tax law resource that takes taxpayers
        through a series of questions and provides them with responses to basic tax law
        questions.
       Free File – This tool allows eligible taxpayers to electronically prepare and file their
        returns for free using brand-name software or Free File Fillable Forms.
The IRS also offers virtual services via video conferencing and Facilitated Self-Assistance at
selected Taxpayer Assistance Centers.2 Facilitated Self-Assistance is provided in 37 of the
386 Taxpayer Assistance Centers.
The Field Assistance Office faces many issues and unique challenges in its ability to provide
services in Taxpayer Assistance Centers. The challenges include:



1
  The count of 386 Taxpayer Assistance Centers does not include three Taxpayer Assistance Centers that are
temporarily closed.
2
  Virtual service allows taxpayers to use video and audio communication technology to have “virtual” face-to-face
interactions with assistors in remote locations. Facilitated Self-Assistance is a means for taxpayers seeking
face-to-face services to learn and perform any task available on IRS.gov via public computer terminals located at
selected Taxpayer Assistance Centers.


                                                                                                           Page 1
                              Processes to Determine Optimal Face-to-Face
                            Taxpayer Services, Locations, and Virtual Services
                                       Have Not Been Established


       Furloughs and Government Shutdown – Due to sequestration, the IRS scheduled
        five furlough days in Fiscal Year3 2013. In addition, most IRS employees, including
        Taxpayer Assistance Center assistors, were not working during the 16-day Government
        shutdown in October 2013. These were days for which the Taxpayer Assistance Centers
        did not provide service to taxpayers.
       Changing Taxpayer Needs/Tax Law Changes – Taxpayer Assistance Centers are
        experiencing an increase in the number of taxpayers who need assistance with tax
        account-related issues. The need for taxpayers to obtain transcripts has increased
        significantly due to, among other things, changes in banking policies4 and Department of
        Education requirements for taxpayers obtaining financial aid. In addition, starting in
        Calendar Year 2015, taxpayers will need information and assistance regarding the tax
        implications of the Affordable Care Act.5 There has also been an increase in individuals
        with identity theft issues visiting Taxpayer Assistance Centers. Moreover, there has been
        increased demand related to the authentication requirements of individuals applying for
        Individual Taxpayer Identification Numbers.6
       Budget – Budget cuts continue to strain Taxpayer Assistance Center resources. The Field
        Assistance Office’s Fiscal Year 2013 budget was reduced by 7 percent from the previous
        year. The funding level for Fiscal Year 2014 is 5.8 percent less than the Fiscal Year 2013
        funding.
The IRS estimates that the Taxpayer Assistance Centers will serve 900,000 fewer taxpayers in
Fiscal Year 2014 than in Fiscal Year 2013. Figure 1 shows the number of Taxpayer Assistance
Centers open for Fiscal Years 2010 through 2014 along with the budget, full-time equivalents
(FTEs),7 and taxpayer contacts each year.




3
  A 12-consecutive-month period ending on the last day of any month. The Federal Government’s fiscal year begins
on October 1 and ends on September 30.
4
  Lenders that loan money to individuals for mortgages are required to verify the individual’s income to approve the
loans. This is accomplished by obtaining a transcript of the individual’s tax information from the IRS. Dodd-Frank
Wall Street Reform and Consumer Protection Act, Pub. L. No. 111-203, 124 Stat. 2143, enacted July 21, 2010.
5
  Pub. L. No. 111-148, 124 Stat. 119 (2010) (codified as amended in scattered sections of the U.S. Code), as
amended by the Health Care and Education Reconciliation Act of 2010, Pub. L. No. 111-152, 124 Stat. 1029.
6
  A tax processing number issued by the IRS to an individual who is required to have a taxpayer identification
number but does not have a Social Security Number.
7
  A measure of labor hours in which one FTE is equal to eight hours multiplied by the number of compensable days
in a particular fiscal year.


                                                                                                            Page 2
                              Processes to Determine Optimal Face-to-Face
                            Taxpayer Services, Locations, and Virtual Services
                                       Have Not Been Established


                Figure 1 – Comparative Analysis of Staffing and Services
                      Provided in Fiscal Years 2010 Through 2014

                                  Taxpayer                                              Taxpayer
                                 Assistance           Budget          Number of         Contacts
              Fiscal Year          Centers         (in millions)        FTEs          (in millions)
                  2010                401             $184.5             2,169             6.4
                  2011                401             $169.7             2,120             6.4
                  2012                397             $174.3             2,012             6.8
                  2013                390             $162.0             1,896             6.5
                  2014                386             $152.6*            1,832*            5.6*

              Percentage
               Change
              2010–2014              -3.7%           -17.3%*           -15.5%*          -12.5%*

         Source: IRS Management Information Reports. * Fiscal Year 2014 budget, FTEs, and taxpayer
         contacts are projected.

Taxpayer Assistance Center geographic footprint initiatives
In Calendar Year 2005, the IRS announced plans to close 68 of its Taxpayer Assistance Centers
as part of its continuing efforts to create efficiencies, modernize operations, and reduce costs
while maintaining its commitment to taxpayer service. However, members of Congress
expressed concerns about proposed taxpayer service reductions due to the IRS’s inability to
explain the potential impact of these changes on taxpayers and also questioned the IRS’s
estimated cost savings from reducing some of its services.
In response, the IRS developed a five-year plan, called the Taxpayer Assistance Blueprint.
Issued in April 2007, the plan cited a 2005 congressional mandate for the IRS to address
taxpayers’ service needs and ensure that service-related decisions are informed by research and
guided by stakeholder engagement.8 The plan also committed the IRS to a Service Improvement
Portfolio, which included a Taxpayer Assistance Center Geographic Coverage Initiative to
identify opportunities to better align taxpayer needs with resource allocations using demographic
information to determine the best places for Taxpayer Assistance Centers.
In February 2008, the IRS formed the Geographic Coverage Initiative Team with representatives
from four IRS offices – the Field Assistance Office, the Office of the National Taxpayer
Advocate, the Real Estate Facilities and Management function, and the Office of Program

8
 United States Congress, Conference Report 109-307, Joint Explanatory Statement of the Committee of Conference:
Internal Revenue Service, Processing, Assistance, and Management (Including Rescission of Funds).


                                                                                                       Page 3
                             Processes to Determine Optimal Face-to-Face
                           Taxpayer Services, Locations, and Virtual Services
                                      Have Not Been Established


Evaluation and Risk Analysis. The team’s initial purpose was to gather and analyze data from
various sources, including research conducted during the Taxpayer Assistance Blueprint and the
Geographic Coverage Initiative and develop a repeatable process for analyzing coverage areas of
IRS taxpayer service facilities. The team was to evaluate coverage to determine: 1) the
Taxpayer Assistance Centers that should be considered for merging or establishing alternative
service options; 2) areas where additional presence is needed; 3) areas where there is overlapping
coverage; and 4) areas that are underserved.9
This review was performed at the Wage and Investment Division Headquarters in
Atlanta, Georgia; the Real Estate and Facilities Management function in Washington, D.C.; and
the Office of Program Evaluation and Risk Analysis in Washington, D.C., during the period
June 2013 through April 2014. We conducted this performance audit in accordance with
generally accepted government auditing standards. Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objective. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit objective.
Detailed information on our audit objective, scope, and methodology is presented in Appendix I.
Major contributors to the report are listed in Appendix II.




9
 Overlapping coverage is where services to taxpayers in the same zip codes are covered by two or more Taxpayer
Assistance Centers.


                                                                                                        Page 4
                              Processes to Determine Optimal Face-to-Face
                            Taxpayer Services, Locations, and Virtual Services
                                       Have Not Been Established




                                      Results of Review

Taxpayer Assistance Center Services Were Eliminated or Reduced
Without Sufficient Data or Analysis
The IRS eliminated or reduced services at Taxpayer Assistance Centers as part of its Fiscal
Year 2014 Service Approach.10 The IRS stated that the intent of its service approach was to
balance taxpayer demand for services with the IRS’s anticipated budget cuts, redirect taxpayers
to online services, enable assistors to dedicate more time to answer tax account-related inquiries,
and provide other services at Taxpayer Assistance Centers, such as identity theft services and
acceptance of payments. The reduction in service was implemented without completing the
required taxpayer burden risk evaluation for the taxpayers most likely to visit a Taxpayer
Assistance Center, such as low-income, elderly, and limited-English-proficient taxpayers. The
purpose of such an evaluation is to assess the burden that service changes can have on taxpayers.
Finally, although the IRS stated that the services eliminated or reduced were, in part, the result of
the IRS’s anticipated budget cuts, the IRS’s plans do not show to what extent the service cuts
will lower the costs and the FTEs at the Taxpayer Assistance Centers. In fact, the FTEs
allocated to Taxpayer Assistance Centers in Fiscal Year 2014 have not been substantially
reduced. For example, the IRS allocated only 64 (3.4 percent) fewer FTEs at the Taxpayer
Assistance Centers in Fiscal Year 2014 than in Fiscal Year 2013.
Figure 2 shows the Fiscal Year 2014 service cuts at Taxpayer Assistance Centers.




10
  The Fiscal Year 2014 Service Approach included service cutbacks for other service channels (toll-free telephones
and online services). Our review focused on service cutbacks at Taxpayer Assistance Centers.


                                                                                                           Page 5
                               Processes to Determine Optimal Face-to-Face
                             Taxpayer Services, Locations, and Virtual Services
                                        Have Not Been Established


                     Figure 2 – Fiscal Year 2014 Service Approach Changes

         Service Eliminated
            or Reduced                        Explanation of Service Eliminated or Reduced

     Tax Return Preparation        Taxpayer Assistance Centers will no longer provide tax return
                                   preparation services. Taxpayers who had tax returns prepared during
                                   Processing Year11 2013 were mailed a postcard informing them of the
                                   elimination of this service. Taxpayers who visit a Taxpayer Assistance
                                   Center to have their returns prepared will be referred to the nearest
                                   volunteer sites for tax return preparation.

     Tax Law Assistance            Taxpayer Assistance Centers will only answer “basic” tax law questions
                                   during the filing season,12 with no tax law questions answered during
                                   non–filing season months.13 Taxpayers will be directed to self-service
                                   options such as IRS.gov and Facilitated Self-Assistance terminals,
                                   which include access to the Interactive Tax Assistant tool self-service
                                   options, at the 37 Taxpayer Assistance Centers with terminals available.

     Requests for Transcripts Taxpayer Assistance Centers are transitioning to no longer provide
                              transcripts upon request without extenuating circumstances. Taxpayers
                              with transcript requests will be referred to the “Get Transcript”
                              application on IRS.gov. As of February 2014, the IRS had not set a
                              deadline for the transition.

     Tax Refund Inquiries          Taxpayer Assistance Centers will no longer answer taxpayers’ tax
                                   refund inquiries unless the taxpayer has waited more than 21 days for
                                   the refund. Taxpayers with refund inquiries will be referred to the
                                   “Where’s My Refund?” application on IRS.gov.

     Source: The IRS’s Fiscal Year 2014 Service Approach Presentation.

In making its decision to reduce the above services, the IRS did not evaluate the additional
burden to the almost two million taxpayers affected by the service cuts each year.14 For example,
taxpayers’ additional travel costs, wait times, and access to volunteer tax return preparation sites
were not analyzed, nor was there an impact assessment to determine the effect the service cuts
would have on the volunteer tax return preparation sites. The increase in traffic to volunteer tax
return preparation sites was not fully analyzed to determine which sites would see increases, if
the sites were prepared to handle the additional traffic, and how the increased traffic would affect
taxpayer service.

11
   The calendar year in which the return or document is processed by the IRS.
12
   The period from January through mid-April when most individual income tax returns are filed.
13
   The non–filing season months are those that do not fall within the filing season.
14
   In Fiscal Year 2013, almost two million taxpayers had their tax returns prepared by Taxpayer Assistance Center
assistors, used tax law assistance, or obtained a transcript in a Taxpayer Assistance Center. Taxpayer Assistance
Centers do not track how many taxpayers inquired about their refunds.


                                                                                                           Page 6
                              Processes to Determine Optimal Face-to-Face
                            Taxpayer Services, Locations, and Virtual Services
                                       Have Not Been Established


In addition, the IRS did not assess the impact to the online Interactive Tax Assistant tool to
determine if it can meet the needs of taxpayers who can no longer get answers to their tax law
questions at Taxpayer Assistance Centers. Management determined that most taxpayers do not
need tax law assistance at the Taxpayer Assistance Centers because taxpayers are already using
paid tax return preparers or tax return preparation software. Management also did not perform
any analysis of the anticipated traffic and usage of the “Get Transcript” online application to
ensure that it could meet the increased demand. Lastly, changes to services were developed
without sufficient analysis of the effect the changes would have on the IRS’s core mission of
ensuring that taxpayers understand and comply with the tax laws. Tax laws are complex, and
problems often result from taxpayers misunderstanding the tax laws and their tax obligations.
Without performing the required evaluation of taxpayer burden and assessing the impact on other
IRS functions and service partners, the IRS cannot evaluate the impact that service cuts have on
the low-income, elderly, and limited-English-proficient taxpayers who seek face-to-face service
in their attempts to meet their tax obligations. The IRS also cannot make informed decisions
related to future services provided at Taxpayer Assistance Centers.
After the IRS briefed stakeholders on its Fiscal Year 2014 Service Approach, the National
Taxpayer Advocate expressed concerns related to the changes in tax law assistance.15 The
National Taxpayer Advocate’s Fiscal Year 2013 Report to Congress stated that the change
“continues an unfortunate trend of service reductions for taxpayers who either do not have
Internet access or otherwise require or prefer in-person assistance.”16 It also stated that the
reduction in services is particularly concerning because the U.S. tax system is built on voluntary
compliance, and the IRS’s overriding goal is to maximize voluntary compliance.17
The IRS Oversight Board18 also expressed concerns that the change in tax law assistance was
potentially conflicting with the IRS’s ability to perform its core mission. The IRS Oversight
Board expressed concerns about the perception of potentially forcing taxpayers to use tax
practitioners for answers and the potential additional cost to taxpayers as well as the impact to
customers who do not have computer access.
Management Actions: In February 2014, subsequent to the completion of our fieldwork, the
IRS issued an alert to its employees stating that its online “Get Transcript” application was not
ready for a full deployment. The IRS was concerned because of the expected volume of online


15
   The Office of the National Taxpayer Advocate is an independent organization within the IRS. It helps taxpayers
resolve problems with the IRS and recommends changes that will prevent the problems.
16
   National Taxpayer Advocate 2013 Annual Report to Congress, p. 30.
17
   National Taxpayer Advocate 2013 Annual Report to Congress, p. 21.
18
   The IRS Oversight Board is an independent body charged with overseeing the IRS in its administration,
management, conduct, direction, and supervision of the execution and application of the Internal Revenue laws and
with providing experience, independence, and stability to the IRS so that it may move forward in a focused
direction.


                                                                                                          Page 7
                         Processes to Determine Optimal Face-to-Face
                       Taxpayer Services, Locations, and Virtual Services
                                  Have Not Been Established


requests for transcripts as well as concerns being raised regarding the launch of another Federal
Government website. As a result, IRS management modified its plan to stop providing
transcripts at Taxpayer Assistance Centers during the 2014 Filing Season. Management will use
a “soft launch” approach in which assistors will encourage taxpayers to use the “Get Transcript”
application but will not turn away taxpayers who request this service.

The Fiscal Year 2014 Service Approach Implementation Plan lacks adequate
plans to monitor, measure, and adjust service changes
The Fiscal Year 2014 Service Approach Implementation Plan does not outline a process to
collect data to monitor, measure, and adjust each service change as needed. Part of
management’s assumption when reducing or eliminating services was that assistors will be able
to assist more taxpayers with tax account-related issues. There is no process in place to
determine if taxpayers benefit from the increased focus on tax account-related issues and make
adjustments to services if the anticipated benefit is not realized.
The implementation plan does include steps to communicate service changes to stakeholders
such as congressional committees and the IRS Oversight Board. The plan also includes steps to
communicate changes to taxpayers, including mailing postcards to inform taxpayers who had
their tax returns prepared during Processing Year 2013 of the discontinuation of tax return
preparation services and the availability of alternative services.
In addition, the Field Assistance Office does not collect sufficient data to make informed,
data-driven decisions regarding Taxpayer Assistance Center services. For example, the IRS
collects general data about the various ways it provides services such as toll-free telephone
assistance, IRS.gov, and Taxpayer Assistance Centers, but it does not collect specific
information relating to taxpayer needs or expectations for the specific services provided at the
Taxpayer Assistance Centers. The IRS does have some ongoing initiatives to collect information
about the services, but these initiatives have not been given adequate priority or were developed
without including an evaluation of Taxpayer Assistance Center services. Examples include:
      Service Priority Project Initiative – Since March 2012, Wage and Investment Division
       officials have met with the National Taxpayer Advocate to develop a methodology that
       will help determine which services are the most important to taxpayers as well as the
       value the services have to the IRS. However, this initiative has not been a priority and is
       still in development. Management stated that work on this project was temporarily
       suspended when the manager overseeing it left. As of January 2014, management stated
       that it has now prioritized this work and is identifying the data needed and the methods to
       collect it.
      Taxpayer Choice Model – The IRS developed this model from a taxpayer survey. The
       survey provided taxpayers with specifically designed tax-related scenarios and
       alternatives that taxpayers could use to resolve their issues. The alternatives chosen by
       taxpayers are used to measure the value of services provided through various service

                                                                                           Page 8
                          Processes to Determine Optimal Face-to-Face
                        Taxpayer Services, Locations, and Virtual Services
                                   Have Not Been Established


       channels and how changes to these services (such as an increase in wait time or service
       elimination) would affect taxpayers. However, management decided not to include
       Taxpayer Assistance Center issues in these scenarios. Including Taxpayer Assistance
       Center issues in the Taxpayer Choice Model would have helped the Service Priority
       Project Initiative in determining the value taxpayers place on each service.

Recommendations
The Commissioner, Wage and Investment Division, should:
Recommendation 1: Ensure compliance with IRS procedures that require taxpayer
service-related decisions be based on informed research and guided by stakeholder engagement.
       Management’s Response: The IRS stated that it complied with its procedures
       requiring taxpayer service-related decisions be based on informed research and guided by
       stakeholder engagement when developing the Fiscal Year 2014 Service Approach. The
       IRS also stated that the development and implementation of the Fiscal Year 2014 Service
       Approach was based on thorough research, along with consultation and feedback from
       external partners and stakeholders. In addition, the IRS indicated it used a variety of
       methods to monitor and measure performance, conducted extensive research, and
       addressed taxpayer burden by integrating related messaging in filing season
       communications, as well as developing communication products that provide taxpayers
       helpful information on available services.
       Office of Audit Comment: The IRS has not provided any documentation to support
       its assertion that the required taxpayer burden risk evaluation was performed when
       developing its Fiscal Year 2014 Service Approach. In addition, the IRS did not engage
       with stakeholders to obtain input when developing the Fiscal Year 2014 Service
       Approach. The IRS’s communications with its stakeholders, starting in September 2013,
       was to give notice of the IRS’s decisions in the Fiscal Year 2014 Service Approach.
Recommendation 2: Develop and document steps to be taken to collect data to monitor,
measure, and adjust service changes when needed as part of a long-term plan to implement
face-to-face service changes included in the Fiscal Year 2014 Service Approach and beyond.
       Management’s Response: The IRS agreed with this recommendation and stated that
       it has already taken these steps. The IRS stated it will continue to develop and document
       steps taken to collect data and to monitor, measure, and adjust service changes through
       the use of specific internal reports that provide trend analysis on all elements of the Fiscal
       Year 2014 Service Approach for decisionmaking.
       Office of Audit Comment: Although the IRS agreed with this recommendation, its
       efforts to monitor, measure, and adjust service changes were not documented in its Fiscal
       Year 2014 Service Approach Implementation Plan. The IRS collects general data about

                                                                                              Page 9
                            Processes to Determine Optimal Face-to-Face
                          Taxpayer Services, Locations, and Virtual Services
                                     Have Not Been Established


        the various ways it provides services, such as toll-free telephone assistance, IRS.gov, and
        Taxpayer Assistance Centers, but it does not collect specific information relating to
        taxpayer needs or expectations for the specific services provided at the Taxpayer
        Assistance Centers.
Recommendation 3: Continue working with the National Taxpayer Advocate to complete
the Service Priority Project Initiative as well as coordinate the inclusion of Taxpayer Assistance
Center services in future surveys that can be used with the Taxpayer Choice Model to obtain data
on the services that are most important to taxpayers.
        Management’s Response: The IRS disagreed with this recommendation and stated
        it already has established actions in place to collect available data, including Taxpayer
        Choice Model and other available data sources, as well as its stakeholder engagement
        meeting to understand and address services that are important to taxpayers.
        Office of Audit Comment: Although the IRS responded it has established actions to
        collect available data, its response does not address our recommendation to work with the
        National Taxpayer Advocate to complete the Service Priority Project Initiative nor does it
        address our recommendation to include an assessment of Taxpayer Assistance Center
        services in future surveys.

The Internal Revenue Service Has Not Established a Process to
Identify Optimal Locations for Providing Face-to-Face Services
The IRS has not established a process to ensure that it provides services in optimal locations to
meet the needs of taxpayers who seek face-to-face assistance. We reported a similar finding in
Fiscal Year 2011, and the IRS acknowledged at that time that it had not kept pace with shifts in
population and demographics.19 The IRS focuses on identifying Taxpayer Assistance Centers
that can be closed but does not actively try to identify opportunities to place sites in locations
that may better meet the needs of taxpayers. Moreover, the data provided to management for use
in assessing potential site closures are based on incomplete information.
The Taxpayer Assistance Blueprint requires the IRS to continually reevaluate the locations of
Taxpayer Assistance Centers to meet taxpayer service demands and to facilitate its investment
decisions. The Wage and Investment Division is responsible for determining where Taxpayer
Assistance Centers should be located. However, the analysis only consists of making closure
determinations when it is notified of Taxpayer Assistance Centers’ pending lease expirations. As
a result, the geographic coverage for face-to-face services has not changed significantly. As of
January 2014, taxpayers have access to face-to-face services at or near the original 401 Taxpayer

19
 TIGTA, Ref. No. 2011-40-022, The Taxpayer Assistance Centers Are Not Located to Effectively Serve the
Maximum Number of Taxpayers (Feb. 2011).


                                                                                                     Page 10
                          Processes to Determine Optimal Face-to-Face
                        Taxpayer Services, Locations, and Virtual Services
                                   Have Not Been Established


Assistance Center locations in place at the time the Taxpayer Assistance Blueprint was
implemented in Calendar Year 2007.
Because of limited funding, the IRS believes its emphasis should be on Taxpayer Assistance
Center closures and not on establishing a process to ensure that it provides services in the
optimal locations to meet taxpayer needs. In addition, over the past six years, six different Field
Assistance Office officials have been assigned the responsibility for implementing the Taxpayer
Assistance Blueprint’s geographic requirements. We believe the lack of sufficient program
emphasis and management continuity is affecting the IRS’s ability to ensure that locations for its
Taxpayer Assistance Centers are optimal.

Taxpayer Assistance Center Geographic Coverage Model
The IRS uses a Geographic Coverage Model to identify and assess Taxpayer Assistance Centers
with pending lease expirations for possible closure. This model evolved from the Geographic
Coverage Initiative and includes a three-step process:
      Step 1 – The Real Estate Facilities Management function monitors IRS office leases.
       Approximately every month, they meet with Field Assistance Office management to
       provide notification of any Taxpayer Assistance Centers with leases due to expire within
       18 to 24 months.
      Step 2 – The Office of Program Evaluation and Risk Analysis annually calculates the
       service coverage rate for each Taxpayer Assistance Center.
      Step 3 – The Field Assistance Office assesses information obtained in Step 2 along with
       the Taxpayer Assistance Center’s staffing, number of taxpayer contacts, and workload to
       determine if Taxpayer Assistance Centers with pending lease expirations should be
       closed, merged, or moved to a nearby location.
Figure 3 shows an example of the data model results used when deciding to close a Taxpayer
Assistance Center.




                                                                                           Page 11
                         Processes to Determine Optimal Face-to-Face
                       Taxpayer Services, Locations, and Virtual Services
                                  Have Not Been Established


                           Figure 3 – Example of IRS Taxpayer
                          Assistance Center Footprint Analysis




                                     Office 1


                                     Office 2


                                 Office with
                               Expiring Lease


                                    Office 3




                            Source: IRS geographic footprint analysis.

Management determines how many taxpayers are within a 30-, 40-, and 50-minute drive of the
Taxpayer Assistance Center being considered for closure and any nearby locations. This
analysis determines the percentage of the population served by the Taxpayer Assistance Center
that is also served by other Taxpayer Assistance Centers. Other criteria used when making a
closure determination include:
      Total population the Taxpayer Assistance Center serves, including segmenting the
       population by various demographics, such as low-income taxpayers,
       limited-English-proficient taxpayers, and taxpayers with disabilities.
      Costs associated with the site including rent and security.
      Number of assistors at the Taxpayer Assistance Center and any nearby Taxpayer
       Assistance Centers.
      Number of nearby volunteer tax return preparation sites.
      Types of services most often requested at the Taxpayer Assistance Center.
After full consideration of the criteria detailed above, recommended closures of Taxpayer
Assistance Centers are prepared and presented to IRS executives for review. Twelve Taxpayer
Assistance Centers have been permanently closed since Fiscal Year 2012.

Data used to make Taxpayer Assistance Center location decisions are incomplete
The IRS does not ensure that relevant information is collected or analyzed when making its
Taxpayer Assistance Center closure decisions. Examples include:

                                                                                        Page 12
                              Processes to Determine Optimal Face-to-Face
                            Taxpayer Services, Locations, and Virtual Services
                                       Have Not Been Established


        Addresses of Taxpayer Assistance Center Visitors – The ZIP codes of taxpayers who
         visit a Taxpayer Assistance Center or use Virtual Service Delivery are not analyzed. This
         information would provide the IRS with location information and patterns of individuals
         who actually contact a Taxpayer Assistance Center. This information could be used in
         conjunction with the locations of all tax return filers to make better location decisions.
        No Shows20 and Referrals – The total number of taxpayers who sought service from a
         Taxpayer Assistance Center is not considered. For Fiscal Years 2012 and 2013, the IRS
         analyses used totals of 6.8 million and 6.5 million taxpayers, respectively, who were
         provided service. However, 7.3 million and 7.0 million taxpayers, respectively, actually
         visited the Taxpayer Assistance Centers. The analyses did not consider the almost
         500,000 taxpayers each year who visited a Taxpayer Assistance Center but left without
         receiving service.
        Shifting Population – Shifts in the U.S. population were not considered. Information
         from the 2010 Census shows changes in the population served by Taxpayer Assistance
         Centers. Between Calendar Years 2000 and 2010, States had a median population
         increase of 7.6 percent, with five States having a population growth of 20 percent or
         more. Yet the IRS has not identified the impact these population shifts had on Taxpayer
         Assistance Centers that serve these areas or the underserved population in these areas.
        Demographic Information – When the United States Census stopped providing crucial
         data in Fiscal Year 2011, the IRS did not identify new sources. Examples include data to
         identify populations of individuals with disabilities, individuals with less than a high
         school diploma, and individuals with limited English proficiency.
In addition, there are no documentation and retention requirements for information that
management uses to support methodology changes, decisions, and closure approvals. Without
these requirements, there is a risk of processes not being consistently followed when changes in
management or responsibilities occur. After we brought this issue to management’s attention,
the Field Assistance Office started implementing steps for an annual review of the methodology
beginning in January 2014.
The IRS also has difficulty in identifying and tracking the financial information needed for
analysis because not all costs related to the Taxpayer Assistance Center Program are tracked in
the IRS’s Taxpayer Assistance appropriation. Staffing, travel, and physical security costs are
reported as part of the IRS’s Taxpayer Assistance appropriation, but rent, security costs, and
relocation costs are reported as part of the IRS’s Operations Support appropriation.



20
  No Shows refers to taxpayers who visit Taxpayer Assistance Centers and request service but leave before they are
assisted.


                                                                                                         Page 13
                          Processes to Determine Optimal Face-to-Face
                        Taxpayer Services, Locations, and Virtual Services
                                   Have Not Been Established


Recommendations
The Commissioner, Wage and Investment Division, should:
Recommendation 4: Establish a methodology to identify the optimal locations for providing
face-to-face assistance to the most taxpayers.
       Management’s Response: The IRS disagreed with this recommendation and stated
       that it has an established methodology in place to identify the optimal locations for
       providing face-to-face assistance to the greatest number of taxpayers, using the
       Geographic Coverage Model.
       Office of Audit Comment: As our report details, the IRS uses the Geographic
       Coverage Model to identify locations in areas already covered by existing Taxpayer
       Assistance Centers with pending lease expirations. IRS management acknowledged
       during our review that they have the data to perform the necessary analysis but choose
       not to evaluate if Taxpayer Assistance Centers with pending lease expirations would
       better serve taxpayers if relocated to a different region of the country or areas not already
       covered by Taxpayer Assistance Centers.
Recommendation 5: Develop and implement financial and operational documentation and
retention requirements to support data analyses, discussion participants, decisions, approvals, and
specific closure information.
        Management’s Response: The IRS agreed with this recommendation and has
       developed financial and operational documentation and retention requirements to support
       data analyses, discussion participants, decisions, approvals, and specific closure
       information. These actions are currently being finalized and prepared for
       implementation.

A Process Has Not Been Developed to Expand Virtual Service
Delivery
Virtual Service Delivery integrates video and audio technology to allow taxpayers to see and
hear an assistor located at a remote Taxpayer Assistance Center, giving the taxpayers “virtual
face-to-face interactions” with assistors. Taxpayers can use this technology to obtain many of
the services available at Taxpayer Assistance Centers. The goals for Virtual Service Delivery
are to enhance the use of IRS resources, optimize staffing, and balance workload. Benefits
include:
      Reduced dependency on Taxpayer Assistance Centers.
      Reduced costs associated with a traditional brick and mortar delivery method.
      Improved alignment of employees to taxpayer demand.

                                                                                            Page 14
                          Processes to Determine Optimal Face-to-Face
                        Taxpayer Services, Locations, and Virtual Services
                                   Have Not Been Established


      Increased face-to-face customer service.
As of February 2014, the IRS offered Virtual Service Delivery at 30 locations, including
22 Taxpayer Assistance Centers and eight Volunteer Program sites. However, since the
Taxpayer Assistance Blueprint was implemented in 2007, the IRS has not revised its geographic
coverage methodology to identify underserved areas that would benefit from Virtual Service
Delivery. This is despite IRS data that show Virtual Service Delivery is well received by
taxpayers and is a cost-effective alternative that could yield improvements in taxpayer service.
For example, as of May 2012, 91 percent of taxpayers surveyed would use Virtual Service
Delivery terminals again, and 87 percent reported being satisfied with the service they received.
Taxpayer Assistance Center leases cost the IRS an average of more than $60,000 annually each,
whereas Virtual Service Delivery has a one-time average start-up cost of $32,337 per terminal.
The Wage and Investment Division requested Fiscal Year 2014 funding to expand Virtual
Service Delivery but did not receive it. Management cited the low number of taxpayers who
seek face-to-face services compared to the number who seek service from the other service
channels (IRS.gov and toll-free telephones) as a reason for the lack of funding for Virtual
Service Delivery. In Fiscal Year 2013, taxpayers visited IRS.gov 456 million times. In contrast,
6.5 million taxpayers received assistance at Taxpayer Assistance Centers. Although the number
of taxpayers who seek face-to-face service is significantly lower than other service channels, the
needs of these taxpayers should not be overlooked. Many taxpayers seeking face-to-face service
are elderly, have low income, or have limited English proficiency.
Our review of the Virtual Service Delivery budget request found that it was not adequately
developed to provide decision makers with sufficient data about the potential savings to the IRS
and benefits to taxpayers. The IRS described potential benefits as an expectation to “save
considerable travel cost and time for employees and taxpayers,” but it did not quantify these
savings. It also did not estimate the number of additional taxpayers Virtual Service Delivery
would serve. Because the IRS methodology does not include identifying new locations outside
areas already served that would benefit from Virtual Service Delivery, the IRS cannot include
the volume of taxpayers in underserved areas that would benefit in its funding requests or in
communications with outside partners.
Wage and Investment Division management stated that another reason for not expanding Virtual
Service Delivery is that it is relying on the IRS’s Office of Online Services to replace existing
virtual services with new video technology that will allow taxpayers to receive the same services
from their personal computers. Management stated that, after piloting the program, the Office of
Online Services’ long-term plan is to implement this technology by Fiscal Year 2016. However,
many of the taxpayers assisted by Taxpayer Assistance Centers and Virtual Service Delivery,
such as the elderly or those living in rural areas, may not have access to computers or high-speed
Internet connectivity. These taxpayers may be unable to use the new video technology even if
the pilot is successful and the IRS deploys it. As a result, we believe the Wage and Investment
Division should establish efforts to provide Virtual Service Delivery in the best locations to

                                                                                          Page 15
                         Processes to Determine Optimal Face-to-Face
                       Taxpayer Services, Locations, and Virtual Services
                                  Have Not Been Established


increase the efficiency of providing face-to-face assistance to taxpayers. Taxpayers who need
assistance but do not have access to a Taxpayer Assistance Center are not in a position in which
they can wait for future technology or other service delivery options.

Recommendations
The Commissioner, Wage and Investment Division, should:
Recommendation 6: Establish a process to identify the best locations for virtual face-to-face
services. This process should include developing a long-term virtual delivery plan to provide
face-to-face assistance to as many taxpayers as possible.
       Management’s Response: The IRS disagreed with this recommendation and stated
       that it has established a process to identify the best locations for virtual face-to-face
       services. The process uses a repeatable methodology that will continue to be enlisted as
       funding becomes available for expansion of the program.
       Office of Audit Comment: The process the IRS established limits its evaluation of
       possible Virtual Service Delivery sites to only those areas already served by Taxpayer
       Assistance Centers. It does not identify optimal underserved areas across the country that
       would benefit the most from Virtual Service Delivery expansion.
Recommendation 7: Quantify the cost savings and benefits related to Virtual Service
Delivery and report this information in budget requests.
       Management’s Response: The IRS stated it has completed this action item by
       quantifying the cost savings and benefits related to Virtual Service Delivery and reporting
       this information in its annual budget requests.
       Office of Audit Comment: We evaluated the support for Virtual Service Delivery in
       the IRS’s Fiscal Year 2014 budget request and found no evidence that the IRS quantified
       the cost savings and benefits related to this service.




                                                                                          Page 16
                              Processes to Determine Optimal Face-to-Face
                            Taxpayer Services, Locations, and Virtual Services
                                       Have Not Been Established


Issues Reported in Prior Treasury Inspector General for Tax
Administration Reports Have Not Been Fully Addressed
The IRS took corrective actions to adequately address three of five recommendations we
reviewed that were included in prior Treasury Inspector General for Tax Administration
(TIGTA) reports21 relating to face-to-face services in Taxpayer Assistance Centers. Figure 4
provides a summary of the three recommendations and the actions IRS management has taken.
                           Figure 4: Management Actions in Response
                             to Prior TIGTA Audit Recommendations

                Recommendation                                       Management Actions

     Use existing system data, such as            Initially, in response to the recommendation, the IRS
     No Show data, to identify opportunities      developed a No Show data report to reflect the number
     for improving taxpayer services.             of taxpayers who visit Taxpayer Assistance Centers.
                                                  Since that time, the IRS has used No Show data to
                                                  identify unmet taxpayer demands and discussed using it
                                                  during training sessions.

     Validate the data used in the                The IRS developed more detailed documentation of the
     Geographic Coverage Initiative process       model methodology used for the Geographic Coverage
     and ensure that the correct criteria are     Initiative, as well as a version control system to provide
     used and all decisions, along with the       documentation of any changes made to the model
     data used and methodologies for              methodology or updates to the source data.
     making the decisions, are supported
     and documented.

     Identify opportunities to better align the   The IRS developed a geographic coverage process
     Taxpayer Assistance Centers with             checklist to include an analysis of its management
     taxpayer needs and complete the              information system. This assisted in identifying
     evaluative process in the Geographic         opportunities to better align the Taxpayer Assistance
     Footprint Initiative.                        Centers with taxpayer needs as part of the analysis for
                                                  closing a location; however, as noted in this report, the
                                                  IRS still has not taken action to align the Taxpayer
                                                  Assistance Centers with taxpayer needs.

 Source: TIGTA analysis of actions taken in response to prior audit reports.




21
  TIGTA, Ref. No. 2009-40-072, Field Assistance Office Management Information Systems Have Improved, but
Enhancements Could Improve Taxpayer Service (May 2009); TIGTA, Ref. No. 2011-40-022, The Taxpayer
Assistance Centers Are Not Located to Effectively Serve the Maximum Number of Taxpayers (Feb. 2011); and
TIGTA, Ref. No. 2012-40-073, Better Information Is Needed to Assess Ongoing Efforts to Expand Self-Assistance
and Virtual Services to Taxpayers (Jul. 2012).


                                                                                                       Page 17
                             Processes to Determine Optimal Face-to-Face
                           Taxpayer Services, Locations, and Virtual Services
                                      Have Not Been Established


The IRS has not adequately addressed the following recommendations:
        Ensure Field Assistance Office controls are reinforced to ensure that data are entered
         accurately into management information systems and reviewed.22
         In May 2009, the IRS reported on the Joint Audit Management Enterprise System that
         multi-tiered operational reviews of data entry were in place. However, at the time of our
         review, this system was not in place. The IRS stated that it was unable to perform the
         multi-tiered reviews after upgrading its management information system in
         October 2011. In January 2014, more than two years after the system upgrade, the IRS
         finished implementing a new review system that allows area and Territory managers to
         select a sample of reports to review. However, the completion of this corrective action
         occurred subsequent to our fieldwork and was not evaluated.
        Develop sufficient measures (including a customer satisfaction survey) and goals for
         the Facilitated Self-Assistance initiative in the Taxpayer Assistance Centers that will
         allow the IRS to determine if the initiative is cost effective and is meeting
         expectations.23
         The IRS disagreed with this recommendation and did not take the actions we
         recommended. While management agreed that measures and goals are critical for
         determining if their Facilitated Self-Assistance initiative is cost effective and meeting
         program expectations, they believed taxpayer usage is a better measure than customer
         satisfaction surveys for the purpose of determining program success.
Although the IRS disagreed with the above recommendation, we continue to believe that a
customer satisfaction survey would be a better measure than taxpayer usage to gauge the
effectiveness of Facilitated Self-Assistance terminals in Taxpayer Assistance Centers and that
developing other measures and goals for Facilitated Self-Assistance would allow the IRS to
determine if these terminals are effective and meeting expectations.




22
   TIGTA, Ref. No. 2009-40-072, Field Assistance Office Management Information Systems Have Improved, but
Enhancements Could Improve Taxpayer Service p. 11 (May 2009).
23
   TIGTA, Ref. No. 2012-40-073, Better Information Is Needed to Assess Ongoing Efforts to Expand Self-Assistance
and Virtual Services to Taxpayers (Jul. 2012).


                                                                                                       Page 18
                         Processes to Determine Optimal Face-to-Face
                       Taxpayer Services, Locations, and Virtual Services
                                  Have Not Been Established


                                                                                   Appendix I

        Detailed Objective, Scope, and Methodology

Our overall objective was to determine the effectiveness and efficiency of the Taxpayer
Assistance Center Program. This review included tests to follow up on the IRS’s corrective
actions to address recommendations in prior audits of the Field Assistance Office’s management
of Taxpayer Assistance Centers. To accomplish this objective, we:
I.     Evaluated the IRS’s processes for identifying the services the Field Assistance Office
       provides taxpayers and how it will provide those services.
       A. Determined if the Field Assistance Office evaluates taxpayer behaviors, preferences,
          and needs when identifying the services it will provide as part of an overall strategy
          for providing quality customer service at Taxpayer Assistance Centers.
       B. Evaluated how management uses the research data results they obtain about taxpayer
          behaviors, needs, and preferences when integrating the data with all other factors they
          consider in identifying the services and locations the Field Assistance Office should
          provide. This included obtaining a status update on the Service Priority Project
          Initiative and determining how the results will affect the Field Assistance Office.
       C. Analyzed the process the Field Assistance Office uses to project the number of
          taxpayers who will need future assistance and to project the resources needed at
          Taxpayer Assistance Centers.
       D. Determined how the Field Assistance Office uses existing system data, such as No
          Show data, to identify trends, patterns, and opportunities for improving taxpayer
          services.
       E. Determined the process the Field Assistance Office has in place to reevaluate changes
          to services and how they affect the IRS.
       F. Evaluated the IRS’s processes for determining when services are offered.
II.    Evaluated the IRS’s processes to ensure that Taxpayer Assistance Centers are optimally
       located to minimize taxpayer burden without adversely affecting taxpayer
       compliance. We ensured that actions taken are based on accurate and complete data.
       A. Determined if the Geographic Coverage Model methodology uses appropriate
          evaluative criteria and accurate source data to identify optimal locations for taxpayer
          assistance.



                                                                                          Page 19
                             Processes to Determine Optimal Face-to-Face
                           Taxpayer Services, Locations, and Virtual Services
                                      Have Not Been Established


        B. Determined if the Taxpayer Assistance Center Location Model uses appropriate and
           accurate staffing information, taxpayer services provided, and taxpayer needs to
           identify, relocate, close, and recommend Taxpayer Assistance Center location sites.
        C. Evaluated the methodology used to make the decision to close the 11 Taxpayer
           Assistance Centers in Fiscal Years 2012 and 2013. The IRS closed another Taxpayer
           Assistance Center in Fiscal Year 2014, for a total of 12 closures. However, this
           closure occurred after our fieldwork ended and we did not review the methodology
           used to close it.
III.    Evaluated the IRS’s processes for determining the service delivery methods,
        i.e., Taxpayer Assistance Center assistors, Facilitated Self-Assistance, and Virtual
        Service Delivery, their locations, and their effectiveness.
        A. Evaluated the Field Assistance Office’s plans to expand the use of Facilitated
           Self-Assistance kiosks at Taxpayer Assistance Centers.
        B. Evaluated plans to expand Virtual Service Delivery to additional locations, including
           closed Taxpayer Assistance Center locations, underserved areas, and Taxpayer
           Assistance Centers targeted for closure.
        C. Identified and evaluated the IRS’s processes for identifying and using emerging
           technologies that may assist the IRS in providing quality customer service
           alternatives to face-to-face customer service.
IV.     Followed up on IRS corrective actions to address recommendations in prior audits1 of the
        Field Assistance Office’s management of Taxpayer Assistance Centers. This included
        evaluation of the goals and measures for Facilitated Self-Assistance and Virtual Service
        Delivery services, the implementation of No Show reports, and the implementation of
        multi-tiered operational reviews.
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined that the
following internal controls were relevant to our audit objective: the processes for identifying the
face-to-face services the Field Assistance Office provides taxpayers and for ensuring that these

1
 TIGTA, Ref. No. 2009-40-072, Field Assistance Office Management Information Systems Have Improved, but
Enhancements Could Improve Taxpayer Service (May 2009); TIGTA, Ref. No. 2011-40-022, The Taxpayer
Assistance Centers Are Not Located to Effectively Serve the Maximum Number of Taxpayers (Feb. 2011); and,
TIGTA, Ref. No. 2012-40-073, Better Information Is Needed to Assess Ongoing Efforts to Expand Self-Assistance
and Virtual Services to Taxpayers (Jul. 2012).


                                                                                                      Page 20
                          Processes to Determine Optimal Face-to-Face
                        Taxpayer Services, Locations, and Virtual Services
                                   Have Not Been Established


services are based on taxpayers’ behaviors, preferences, and needs as part of an overall strategy
for providing quality customer service at Taxpayer Assistance Centers; the processes to ensure
that Taxpayer Assistance Centers are optimally located to minimize taxpayer burden; and the
validation of methodologies and data used. We evaluated these controls by interviewing
management, reviewing guidelines and procedures, and evaluating IRS-provided information.




                                                                                          Page 21
                         Processes to Determine Optimal Face-to-Face
                       Taxpayer Services, Locations, and Virtual Services
                                  Have Not Been Established


                                                                                Appendix II

                 Major Contributors to This Report

Russell P. Martin, Acting Assistant Inspector General for Audit (Returns Processing and
Account Services)
Allen Gray, Director
Wilma Figueroa, Audit Manager
Kenneth Carlson, Lead Auditor
Lynn Faulkner, Senior Auditor
Jack Forbus, Senior Auditor
Laura P. Haws, Senior Auditor




                                                                                          Page 22
                        Processes to Determine Optimal Face-to-Face
                      Taxpayer Services, Locations, and Virtual Services
                                 Have Not Been Established


                                                                             Appendix III

                          Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Director, Office of Research, Analysis, and Statistics RAS
Chief, Agency-Wide Shared Services OS:A
Deputy Commissioner, Operations, Wage and Investment Division SE:W
Deputy Commissioner, Support, Wage and Investment Division SE:W
Director, Office of Program Evaluation and Risk Analysis RAS:O
Director, Customer Assistance, Relationships, and Education, Wage and Investment Division
SE:W:CAR
Director, Real Estate and Facilities Management, Agency-Wide Shared Services OS:A:RE
Director, Field Assistance, Wage and Investment Division SE:W:CAR:FA
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Chief, Program Evaluation and Improvement, Wage and Investment Division
SE:W:S:PEI




                                                                                     Page 23
         Processes to Determine Optimal Face-to-Face
       Taxpayer Services, Locations, and Virtual Services
                  Have Not Been Established


                                                   Appendix IV


Management’s Response to the Draft Report




                                                            Page 24
  Processes to Determine Optimal Face-to-Face
Taxpayer Services, Locations, and Virtual Services
           Have Not Been Established




                                                     Page 25
  Processes to Determine Optimal Face-to-Face
Taxpayer Services, Locations, and Virtual Services
           Have Not Been Established




                                                     Page 26
  Processes to Determine Optimal Face-to-Face
Taxpayer Services, Locations, and Virtual Services
           Have Not Been Established




                                                     Page 27
  Processes to Determine Optimal Face-to-Face
Taxpayer Services, Locations, and Virtual Services
           Have Not Been Established




                                                     Page 28
  Processes to Determine Optimal Face-to-Face
Taxpayer Services, Locations, and Virtual Services
           Have Not Been Established




                                                     Page 29
  Processes to Determine Optimal Face-to-Face
Taxpayer Services, Locations, and Virtual Services
           Have Not Been Established




                                                     Page 30
  Processes to Determine Optimal Face-to-Face
Taxpayer Services, Locations, and Virtual Services
           Have Not Been Established




                                                     Page 31
                         Processes to Determine Optimal Face-to-Face
                       Taxpayer Services, Locations, and Virtual Services
                                  Have Not Been Established


                                                                                  Appendix V

              Office of Audit Comments on
        Management’s Response to the Draft Report

IRS management provided some comments and assertions in its response to our report that we
believe are inaccurate. We provide our perspective on the IRS’s comments below.
Management Statement: The changes to Taxpayer Assistance Center services provided
were implemented after conducting one of the most extensive engagement efforts on a single
topic since the IRS reorganization into its current structure.
       Office of Audit Comment: The above statement implies that extensive engagement
       efforts with stakeholders were performed prior to developing the Fiscal Year 2014
       Service Approach and that their input was used to form its decisions on services to be
       offered at Taxpayer Assistance Centers. However, the IRS did not engage stakeholders
       until after it had developed the Fiscal Year 2014 Service Approach. These
       communications, starting in September 2013, were to notify stakeholders of IRS
       decisions in the Fiscal Year 2014 Service Approach. For example, the IRS listed TIGTA
       as a stakeholder with whom the IRS engaged, yet we first learned about the planned
       service cuts in September 2013, which was almost four months after we initiated our
       audit.
Management Statement: The IRS carefully evaluated service delivery in the Taxpayer
Assistance Centers and considered taxpayer burden.
       Office of Audit Comment: The IRS has not provided any documentation of its
       analysis to support the assertion that an evaluation of service delivery and consideration
       of taxpayer burden was performed for the development of the Fiscal Year 2014 Service
       Approach.
Management Statement: The report contends two million taxpayers were affected by service
cuts, and the majority of the impact was attributable to return preparation.
       Office of Audit Comment: Our audit report did not state that the majority of the two
       million taxpayers affected by service cuts were attributable to return preparation. Our
       report states “almost two million taxpayers had their tax returns prepared by Taxpayer
       Assistance Center assistors, used tax law assistance, or obtained a transcript in a
       Taxpayer Assistance Center. Taxpayer Assistance Centers do not track how many
       taxpayers inquired about their refunds.”



                                                                                           Page 32
                          Processes to Determine Optimal Face-to-Face
                        Taxpayer Services, Locations, and Virtual Services
                                   Have Not Been Established


Management Statement: The ability of online service tools to handle increased demand
from taxpayers redirected from Taxpayer Assistance Centers was noted in the documentation the
IRS provided to TIGTA. Both the Information Technology Application Development function
and the Wage and Investment Division conducted analyses and traffic projections based on
similar applications, growth, and other assumptions. Additionally, performance tests were
performed, and it was determined the systems could sufficiently meet the projected demand.
       Office of Audit Comment: The IRS has not provided any documentation to support
       that it analyzed the online service tools’ ability to handle increased traffic from the
       elimination or reduction of Taxpayer Assistance Center services. In fact, the
       documentation the IRS refers to was provided to us after the end of our fieldwork. Our
       subsequent review of this documentation determined it does not support the IRS’s
       assertion that it conducted analyses, traffic projections, and performance testing. If such
       an analysis was conducted, the IRS may have avoided the need to issue new Taxpayer
       Assistance Center procedures that took effect in January 2014 stating that its online “Get
       Transcript” application was not ready for a full deployment. The IRS was concerned
       because of the expected volume of online requests for transcripts as well as concerns
       being raised regarding the launch of another Federal Government website.
Management Statement: The IRS continues to leverage the Geographic Coverage Model to
identify optimal locations for providing face-to-face services.
       Office of Audit Comment: As we indicated in our audit report, the IRS uses its
       Geographic Coverage Model to identify Taxpayer Assistance Centers that can be closed
       but does not actively try to identify opportunities to place sites in different areas of the
       country that may better meet the needs of taxpayers. IRS management acknowledged
       during our review that they have the data to identify sites that would serve more
       taxpayers if located to a different area of the country but choose not to analyze the data
       for this purpose.
Management Statement: The IRS has a process in place that identified the optimal locations
for Virtual Service Delivery expansion.
       Office of Audit Comment: The IRS does not identify underserved areas across the
       country that would benefit the most from Virtual Service Delivery. The IRS has not
       established a process or long-term virtual delivery plan to expand virtual face-to-face
       services to optimal locations not already served by Taxpayer Assistance Centers.




                                                                                            Page 33
